Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




    NEW YORK CLAIMED SOME
    UNALLOWABLE COSTS FOR
   SERVICES BY NEW YORK CITY
  PROVIDERS UNDER THE STATE’S
  DEVELOPMENTAL DISABILITIES
       WAIVER PROGRAM


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                       August 2012
                                                      A-02-10-01027
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although a
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

Section 1915(c) of the Act authorizes Medicaid home and community-based services (HCBS)
waiver programs. A State’s HCBS waiver program must be approved by CMS and allows a
State to claim Federal reimbursement for services not usually covered by Medicaid.

In New York State, the Office for People With Developmental Disabilities (OPWDD) provides
services to individuals—both Medicaid and non-Medicaid beneficiaries—with intellectual and
developmental disabilities under a cooperative agreement with the Department of Health (DOH),
which administers the State’s Medicaid program. Under a memorandum of understanding with
DOH, OPWDD administers the OPWDD waiver program, an HCBS waiver program. The
OPWDD waiver program is intended to enable adults and children with developmental
disabilities to live in the community as an alternative to Intermediate Care Facilities for
Individuals with Intellectual Disabilities. (The waiver program is formally known as the New
York State Office of Mental Retardation and Developmental Disabilities waiver program.
However, in July 2010, the Office of Mental Retardation and Developmental Disabilities was
renamed the Office for People With Developmental Disabilities.)

Under the OPWDD waiver program, all services must be furnished pursuant to a written plan of
care that is subject to periodic review and update every 6 months. In addition, OPWDD must
maintain documentation of each plan of care. OPWDD waiver program service providers must
maintain all information regarding claims submitted for payment.

During calendar years 2006 through 2008, DOH claimed reimbursement totaling $2.26 billion
($1.16 billion Federal share) for certain OPWDD waiver program services provided by New
York City providers for 458,751 beneficiary-months. A beneficiary-month includes all HCBS
for a beneficiary for 1 month.

OBJECTIVE

Our objective was to determine whether DOH claimed Medicaid reimbursement for HCBS
provided by OPWDD waiver program providers in New York City that complied with certain
Federal and State requirements.




                                               i
SUMMARY OF FINDINGS

DOH claimed Federal Medicaid reimbursement for some OPWDD waiver program services
provided by New York City providers that did not comply with certain Federal and State
requirements. Of the 100 beneficiary-months in our random sample, DOH properly claimed
Medicaid reimbursement for OPWDD waiver program services during 86 beneficiary-months.
However, DOH claimed Medicaid reimbursement for services that did not comply with certain
Federal and State requirements for the remaining 14 beneficiary-months.

Of the 14 beneficiary-months with services for which DOH improperly claimed Medicaid
reimbursement, 2 contained more than 1 deficiency:

 •       For 6 beneficiary-months, DOH claimed reimbursement for service units billed that
         exceeded service units provided.

 •       For 4 beneficiary-months, DOH claimed reimbursement for OPWDD waiver program
         services that were not supported by adequate documentation.

 •       For 3 beneficiary-months, DOH claimed reimbursement for OPWDD waiver program
         services that were not provided.

 •       For 3 beneficiary-months, DOH claimed reimbursement for services that were not provided
         pursuant to a written plan of care.

The claims for unallowable services were made because DOH and OPWDD’s policies and
procedures for overseeing and administering the waiver program were not adequate to ensure
that (1) providers claimed reimbursement only for services actually provided and maintained all
the required documentation to support services billed and (2) OPWDD waiver program services
were provided only to beneficiaries pursuant to written plans of care.

Based on our sample results, we estimate that DOH improperly claimed $7,772,807 in Federal
Medicaid reimbursement for OPWDD waiver program services during calendar years 2006
through 2008.

RECOMMENDATIONS

We recommend that DOH:

     •    refund $7,772,807 to the Federal Government and

     •    work with OPWDD to strengthen policies and procedures to ensure that (1) providers
          claim reimbursement only for OPWDD waiver program services actually provided and
          maintain the required documentation to support services billed and (2) OPWDD waiver
          program services are provided pursuant to written plans of care.




                                                  ii
DEPARTMENT OF HEALTH COMMENTS

In written comments on our draft report, DOH stated that it, along with OPWDD, concurred with
our recommendations and described the actions it had taken or planned to take to address them.

DOH’s comments are included in their entirety as Appendix D.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              Medicaid Program .............................................................................................. 1
              Home and Community-Based Services Waivers ............................................... 1
              New York’s Office for People With Developmental Disabilities
               Waiver Program .............................................................................................. 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 3
               Objective ............................................................................................................ 3
               Scope .................................................................................................................. 3
               Methodology ...................................................................................................... 4

FINDINGS AND RECOMMENDATIONS .......................................................................... 5

          UNALLOWABLE CLAIMS FOR WAIVER PROGRAM SERVICES ...................... 6
              Service Units Billed Exceeded Service Units Provided .................................... 6
              Services Not Documented.................................................................................. 7
              Services Not Provided........................................................................................ 7
              Services Not Provided Pursuant to a Written Plan of Care ............................... 8

          CAUSES OF UNALLOWABLE CLAIMS .................................................................. 8

          RECOMMENDATIONS ............................................................................................... 8

          DEPARTMENT OF HEALTH COMMENTS……………………………………...... 8

APPENDIXES

   A: SAMPLE DESIGN AND METHODOLOGY

   B: SAMPLE RESULTS AND ESTIMATES

   C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED BENEFICIARY-MONTH

   D: DEPARTMENT OF HEALTH COMMENTS




                                                                     iv
                                           INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although a
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

In New York State, the Department of Health (DOH) administers the Medicaid program. DOH
uses the Medicaid Management Information System (MMIS), a computerized payment and
information reporting system, to process and pay Medicaid claims.

Home and Community-Based Services Waivers

Section 1915(c) of the Act authorizes Medicaid home and community-based services (HCBS)
waiver programs. A State’s HCBS waiver program must be approved by CMS and allows a
State to claim Federal reimbursement for services not usually covered by Medicaid. HCBS are
generally provided to Medicaid-eligible beneficiaries in the community rather than in an
institutional setting.

Section 1915(c)(1) of the Act and Federal regulations (42 CFR § 441.301(b)(1)(iii)) allow for
HCBS waiver services to be provided only after a determination that in the absence of such
services the recipients would require the Medicaid-covered level of care provided in a hospital,
nursing facility, or intermediate care facility for individuals with intellectual disabilities. 1 In
addition, Federal regulations (42 CFR § 441.302(c)) require the State Medicaid agency to
provide for an initial evaluation of the recipient’s need for the level of care that would be
provided in an institution unless the individual received the HCBS. The regulations further
require at least annual reevaluations of each recipient receiving HCBS.

Pursuant to 42 CFR § 441.301(b)(1)(i), HCBS must be furnished under a written plan of care
subject to approval by the State Medicaid agency. Pursuant to section 4442.6 of CMS’s State
Medicaid Manual, an assessment of the individual to determine the services needed to prevent
institutionalization is to be included in the plan of care. In addition, the plan of care specifies the
medical and other services to be provided, their frequency, and the type of provider. No Federal
financial participation is available for HCBS waiver program services furnished without a
written plan of care.



1
 Changes in terminology are based on Rosa’s Law (P.L. No. 111-256). For more information, see CMS Final Rule,
77 Fed. Reg. 29002, 29021 & 29028 (May 16, 2012).


                                                      1
New York’s Office for People With Developmental Disabilities Waiver Program

In New York State, the Office for People With Developmental Disabilities (OPWDD) provides
services to individuals—both Medicaid and non-Medicaid beneficiaries—with intellectual and
developmental disabilities under a cooperative agreement with DOH. Under a memorandum of
understanding with DOH, the agency administers the OPWDD 2 waiver program, an HCBS
waiver program. OPWDD administers the program through Developmental Disabilities Services
Offices (DDSO) throughout the State. DDSOs also provide direct services, and oversee and
provide assistance to OPWDD-authorized not-for-profit agencies that serve OPWDD waiver
program beneficiaries. Title 14 § 635-10 of the New York Compilation of Codes, Rules, &
Regulations (NYCRR) establishes requirements for Medicaid reimbursement for OPWDD
waiver program services.

The OPWDD waiver program is intended to enable adults and children with developmental
disabilities to live in the community as an alternative to Intermediate Care Facilities for
Individuals with Intellectual Disabilities. 3,4 Approximately half of OPWDD waiver program
beneficiaries live in their own home or family home, where they receive services. Other
beneficiaries have greater needs, including many who reside in a certified residence and use an
intensive day service such as day habilitation. These beneficiaries commonly travel offsite for
Medicaid services (e.g., clinical services) and use nonemergency medical transportation
(NEMT).

DOH claims Medicaid reimbursement on a fee-for-service basis for HCBS provided to OPWDD
waiver program beneficiaries by OPWDD waiver program providers. Under the memorandum
of understanding with OPWDD, DOH is responsible for annually reviewing a sample of
OPWDD waiver program beneficiaries’ individualized service plans.

According to the State’s OPWDD waiver agreement with CMS, to be eligible for the OPWDD
waiver program, a beneficiary must be a Medicaid recipient, be diagnosed with intellectual or
developmental disabilities, and be assessed to need Intermediate Care Facilities for Individuals
with Intellectual Disabilities level of care. In addition, all services must be furnished pursuant to
a written plan of care that is subject to periodic review and update every 6 months. OPWDD
waiver program providers must maintain all information regarding claims for payment for a
period of 6 years from the date of service.


2
 The waiver program is formally known as the New York State Office of Mental Retardation and Developmental
Disabilities (OMRDD) waiver program. However, in July 2010, the OMRDD was renamed the Office for People
With Developmental Disabilities. We refer to the waiver program throughout this report as “the OPWDD waiver
program.”
3
    See footnote 1.
4
  Services offered under the OPWDD waiver program include residential habilitation; day habilitation (assistance
with improvement in self-help, socialization, and adaptive skills in a nonresidential setting); supported employment
(support to perform in a paid work setting); prevocational services; respite services (short periods of rest or relief for
a caregiver); adaptive technologies; assistive technology; plan of care support services; family education and
training; consolidated supports and services; transitional supports; and fiscal/employer agent services.



                                                            2
During calendar years 2006 through 2008, DOH claimed reimbursement totaling $2.26 billion
($1.16 billion Federal share) for certain OPWDD waiver program services provided by New
York City providers. 5

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether DOH claimed Medicaid reimbursement for HCBS
provided by OPWDD waiver program providers in New York City that complied with certain
Federal and State requirements.

Scope

Our review covered DOH’s claim for Medicaid reimbursement for HCBS claims submitted by
OPWDD waiver program providers in New York City during calendar years 2006 through 2008.
During this period, DOH claimed $2.26 billion ($1.16 billion Federal share) for certain HCBS 6
provided under the OPWDD waiver program by 515 New York City providers during 458,751
beneficiary-months. 7

We plan to issue separate reports on DOH’s claims for Medicaid reimbursement for certain
HCBS provided by OPWDD waiver program providers outside New York City (A-02-10-01044)
and select OPWDD waiver program services (i.e., assistive technology) throughout the State
(A-02-10-01039).

We did not assess DOH’s or OPWDD’s overall internal control structures. Rather, we limited
our review of internal controls to those applicable to our objective, which did not require an
understanding of all internal controls over the OPWDD waiver program. We reviewed New
York City providers’ and OPWDD’s internal controls for documenting OPWDD waiver program
services. We did not assess the appropriateness of OPWDD waiver program services payment
rates. In addition, the scope of our audit did not require us to perform a medical review or an
evaluation of the medical necessity of waiver program services claimed for reimbursement.

We performed our fieldwork at DOH’s and OPWDD’s offices in Albany, New York; the New
York City DDSO’s offices in New York, New York; and at 52 HCBS providers, 2 NEMT
providers, and 14 clinics located throughout the New York City metropolitan area.



5
 New York State is divided into 58 social service districts. Each county is considered its own social services
district, except the five counties (Bronx, Kings, New York, Queens, and Richmond) that make up New York City,
which is considered a single district.
6
 Our review covered all OPWDD waiver program services except assistive technology services because DOH
submitted these for Medicaid reimbursement under a statewide “county code.”
7
 A beneficiary-month includes all HCBS for one beneficiary for 1 month. A beneficiary-month could include
multiple services.


                                                       3
Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal and State Medicaid HCBS waiver laws, regulations, and
        guidance;

    •   met with CMS financial and program management officials to gain an understanding of
        the HCBS waiver approval, administration, and assessment processes;

    •   held discussions with DOH and OPWDD officials to gain an understanding of the
        OPWDD waiver program and to discuss the State’s policies and procedures related to the
        administration of the OPWDD waiver program;

    •   met with officials from OPWDD waiver program provider agencies to obtain an
        understanding of their OPWDD waiver program policies and procedures;

    •   reconciled the OPWDD waiver program services claimed for Federal reimbursement by
        DOH on the Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
        Medical Assistance Program, to the population of certain payments for OPWDD waiver
        program services to providers statewide obtained from the State’s MMIS for the quarter
        January 1, 2008, through March 31, 2008;

    •   obtained from the MMIS a sampling frame of 458,751 beneficiary-months with OPWDD
        waiver program services provided by New York City providers 8 for which DOH claimed
        reimbursement totaling $2,258,322,087 ($1,155,217,004 Federal share) during the period
        January 1, 2006, through December 31, 2008;

    •   selected a stratified random sample of 100 beneficiary-months from the sampling frame
        of 458,751 beneficiary-months and, for each beneficiary-month

            o determined whether the beneficiary was diagnosed with a developmental
              disability and was assessed to need Intermediate Care Facilities for Individuals
              with Intellectual Disabilities level of care,

            o determined whether OPWDD waiver program services were provided pursuant to
              a written plan of care,

            o determined whether the staff members who provided the services met
              qualification and training requirements,

            o determined whether services were documented in accordance with Federal and
              State requirements,

8
 We used providers’ correspondence addresses and county codes on the MMIS to identify those located in New
York City.


                                                      4
                 o determined whether the number of units of OPWDD waiver program services
                   billed for certain claims were actually provided; specifically, we

                           obtained from the MMIS a listing of all NEMT and clinic claims paid on
                            behalf of the beneficiary during the sampled beneficiary-month,

                           reviewed any NEMT and/or clinic claims submitted during the
                            corresponding beneficiary-month in which day habilitation services were
                            paid on the same date of service, 9 and

                           obtained and reviewed documentation from NEMT providers and clinics
                            regarding the corresponding beneficiaries’ appointment time(s) and
                            duration of services; and

        •    estimated the unallowable Federal Medicaid reimbursement paid in the total population
             of 458,751 beneficiary-months.

Appendix A contains the details of our sample design and methodology. Appendix B contains
our sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

DOH claimed Federal Medicaid reimbursement for some OPWDD waiver program services
provided by New York City providers that did not comply with certain Federal and State
requirements. Of the 100 beneficiary-months in our random sample, DOH properly claimed
Medicaid reimbursement for OPWDD waiver program services during 86 beneficiary-months.
However, DOH claimed Medicaid reimbursement for services that did not comply with certain
Federal and State requirements for the remaining 14 beneficiary-months. Of the 14 beneficiary-
months with services for which DOH improperly claimed Medicaid reimbursement, 2 contained
more than 1 deficiency:

    •       For 6 beneficiary-months, DOH claimed reimbursement for service units billed that
            exceeded service units provided.

    •       For 4 beneficiary-months, DOH claimed reimbursement for OPWDD waiver program
            services that were not supported by adequate documentation.


9
 Of the 100 sampled beneficiary-months, 42 contained day habilitation services paid on the same date of service as
an NEMT and/or clinic claim. Of these 42 beneficiary-months, 40 related to clinic services only (provided by 14
different providers) and 2 related to NEMT services and clinic claims.


                                                        5
 •       For 3 beneficiary-months, DOH claimed reimbursement for OPWDD waiver program
         services that were not provided.

 •       For 3 beneficiary-months, DOH claimed reimbursement for services that were not provided
         pursuant to a written plan of care.

Appendix C contains a summary of deficiencies, if any, identified for each sampled beneficiary-
month.

The claims for unallowable services were made because DOH and OPWDD’s policies and
procedures for overseeing and administering the waiver program were not adequate to ensure
that (1) providers claimed reimbursement only for services actually provided and maintained all
the required documentation to support services billed and (2) OPWDD waiver program services
were provided only to beneficiaries pursuant to written plans of care.

Based on our sample results, we estimate that DOH improperly claimed $7,772,807 in Federal
Medicaid reimbursement for OPWDD waiver program services during calendar years 2006
through 2008.

UNALLOWABLE CLAIMS FOR WAIVER PROGRAM SERVICES

Service Units Billed Exceeded Service Units Provided

Under Office of Management and Budget (OMB) Circular A-87, Att. A, § C.1.c, (2 CFR § 225,
App. A § C.1.c), costs claimed to Federal awards must be authorized or not prohibited under
State or local laws or regulations. Pursuant to 14 NYCRR § 635-10.5(c) and (e), group day
habilitation and prevocational services are reimbursed in full or half units of service.
Specifically, providers may bill for a full unit when the provider delivers and documents at least
two face-to-face services and a program day duration of at least 4 hours. Providers may bill a
half unit of service when the provider delivers and documents at least one face-to-face service
and a program day duration of at least 2 hours. In addition, time spent at any other separately
reimbursed service that occurs during the day habilitation program day (e.g., clinic services),
time spent traveling to/from the day habilitation service provider, and mealtime cannot be
counted as part of the program day duration. Pursuant to 14 NYCRR §§ 635-10.5(h)(3)(ii),
non-State-operated respite service providers may claim reimbursement in 15-minute increments,
based on a 1-hour unit of service.

For 6 beneficiary-months, DOH claimed reimbursement for service units billed that exceeded
service units provided. Specifically:

     •    For 4 beneficiary-months, the day habilitation provider submitted a claim that included
          time spent during a clinic visit and/or traveling to/from the clinic. As a result, the
          program day duration was calculated for a full unit of day habilitation services rather than
          a half unit.




                                                   6
     •   For 1 beneficiary-month, the prevocational services provider submitted a claim for a full
         unit of service; however, the provider’s bus logs indicated that the beneficiary was at the
         prevocational provider for only 3.5 hours.

     •   For 1 beneficiary-month, the respite services provider submitted a claim for 16 units
         (4 hours); however, the provider’s service document indicated that only 8 units (2 hours)
         were provided.

Services Not Documented

Section 1902(a)(27) of the Act mandates that States have agreements with Medicaid providers
under which providers agree to keep such records as are necessary to fully disclose the extent of
the services provided to individuals receiving assistance under the Medicaid State plan. Pursuant
to OMB Circular A-87, Cost Principles for State, Local, and Tribal Governments, Att. A, § C.1.j
(2 CFR § 225, App. A § C.1.j), costs must be adequately documented to be allowable under
Federal awards. Pursuant to section 2500.2 of CMS’s State Medicaid Manual, States are to
report only expenditures for which all supporting documentation, in readily reviewable form, has
been compiled and which is immediately available when the claim is filed. 10

Pursuant to 18 NYCRR § 504.3(a), Medicaid providers must prepare and maintain
documentation to support Medicaid claims, including records necessary to disclose the nature
and extent of services furnished.

For 4 beneficiary-months, DOH claimed reimbursement for OPWDD waiver program services
that were not supported by adequate documentation. For example, provider records did not
describe services provided or support the minimum number of required services.

Services Not Provided

Under section 1903(a) (1) of the Act, and pursuant to section 2497.1 of CMS’s State Medicaid
Manual, Federal financial participation is available only for allowable actual expenditures made
on behalf of eligible recipients for covered services rendered by certified providers.

For 3 beneficiary-months, DOH claimed reimbursement for OPWDD waiver program services
for which provider’s records indicated that the provider’s employee or beneficiary was absent on
the date of service. Specifically, for two claims, the beneficiary was absent from the
prevocational services program and, for one claim, the employee documented to have provided
the service was absent from work on the date of an at-home residential habilitation service.




10
  Supporting documentation includes as a minimum the following: date of service; name of recipient; Medicaid
identification number; name of provider agency and person providing the service; nature, extent, or units of service;
and the place of service.


                                                          7
Services Not Provided Pursuant to a Written Plan of Care

Pursuant to section 1915(c)(1) of the Act, waiver services are to be provided only under a written
plan of care subject to approval by the State Medicaid agency. Pursuant to the State’s waiver
agreement with CMS, an eligible OPWDD waiver program beneficiary must have a written plan
of care. Pursuant to section 4442.6 of CMS’s State Medicaid Manual, an assessment of the
individual to determine the services needed to prevent institutionalization is to be included in the
plan of care. In addition, the plan of care specifies the medical and other services to be provided,
their frequency, and the type of provider. No Federal financial participation is available for
OPWDD waiver program services furnished without a written plan of care.

For 3 beneficiary-months, DOH claimed reimbursement for services that were not provided
pursuant to a written plan of care. Specifically, for 2 beneficiary-months, DOH claimed
reimbursement for services that were not listed on the corresponding beneficiary’s plan of care.
For the remaining beneficiary-month, DOH claimed reimbursement for services provided to a
beneficiary for whom neither OPWDD nor the provider could provide the plan of care.

CAUSES OF UNALLOWABLE CLAIMS

The claims for unallowable services were made because DOH and OPWDD’s policies and
procedures for overseeing and administering the waiver program were not adequate to ensure
that (1) providers claimed reimbursement only for services actually provided and maintained all
the required documentation to support services billed and (2) OPWDD waiver program services
were provided only to beneficiaries and only pursuant to written plans of care.

RECOMMENDATIONS

We recommend that DOH:

   •   refund $7,772,807 to the Federal Government and

   •   work with OPWDD to strengthen policies and procedures to ensure that (1) providers
       claim reimbursement only for OPWDD waiver program services actually provided and
       maintain the required documentation to support services billed and (2) OPWDD waiver
       program services are provided pursuant to written plans of care.

DEPARTMENT OF HEALTH COMMENTS

In written comments on our draft report, DOH stated that it, along with OPWDD, concurred with
our recommendations and described the actions it had taken or planned to take to address them.

DOH’s comments are included in their entirety as Appendix D.




                                                 8
APPENDIXES
                                                                                     Page 1 of 2


               APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of beneficiary-months of service with total payments greater than $100
(Federal share) for which the New York State Department of Health (DOH) claimed Medicaid
reimbursement for claims submitted by New York City providers under New York’s Office for
People With Developmental Disabilities home and community-based services (HCBS) waiver
program (the waiver program) during calendar years 2006 through 2008.

SAMPLING FRAME

The sampling frame was an Access file containing 458,751 beneficiary-months of service (with
payments greater than $100) totaling $2,258,322,087 ($1,155,217,004 Federal share). The data
for beneficiary-months of service under the waiver program were extracted from the New York
Medicaid Management Information System.

SAMPLE UNIT

The sample unit was a beneficiary-month during calendar years 2006 through 2008 for which
DOH claimed Medicaid reimbursement for services provided by New York City providers under
the waiver program. A beneficiary-month is defined as all HCBS for one beneficiary for
1 month.

SAMPLE DESIGN

We used a stratified random sample to review Medicaid payments made by DOH to New York
City providers on behalf of beneficiaries enrolled in the waiver program. To accomplish this, we
separated the sampling frame into two strata as follows:

   •   Stratum 1: beneficiary-months with total payments greater than $100 and less than or
       equal to $3,000 (Federal share)—317,282 beneficiary-months totaling $781,075,154
       ($399,137,554 Federal share).

   •   Stratum 2: beneficiary-months with total payments greater than $3,000 (Federal share)—
       141,469 beneficiary-months totaling $1,477,246,933 ($756,079,450 Federal share).

SAMPLE SIZE

We selected a sample of 100 beneficiary-months of service, as follows:

   •   50 beneficiary-months from Stratum 1 and

   •   50 beneficiary-months from Stratum 2.
                                                                                    Page 2 of 2


SOURCE OF THE RANDOM NUMBERS

We used the Office of Audit Services’ statistical software, RAT-STATS 2007, to generate the
random numbers for our stratified random sample.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in each of the two strata. After generating
50 random numbers for each stratum, we selected the corresponding frame items. We then
created a list of 100 sampled items.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit of the 90-percent
confidence interval to estimate the overpayment associated with claims for unallowable waiver
program services.
               APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                Sample Details and Results

                                                              No. of      Value of
                            Value of               Value of Beneficiary- Unallowable
          Beneficiary-       Frame                  Sample Months with    Services
           Months in        (Federal   Sample      (Federal Unallowable   (Federal
Stratum     Frame            Share)     Size        Share)   Services      Share)
   1        317,282       $399,137,554   50          $65,118     7         $4,602
   2        141,469       $756,079,450      50     $245,109         7        $557
 Total      458,751      $1,155,217,004     100    $310,227        14       $5,159


                        Estimated Value of Unallowable Services
                 (Limits Calculated for a 90-Percent Confidence Interval)

                           Point Estimate         $30,778,326
                            Lower Limit            $7,772,807
                            Upper Limit           $53,783,844
                                                                                 Page 1 of 3


       APPENDIX C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED
                       BENEFICIARY-MONTH

                                          Legend
       1   Service Units Billed Exceeded Service Units Provided
       2   Services Not Documented
       3   Services Not Provided
       4   Services Not Provided Pursuant to a Written Plan of Care

Office of Inspector General Review Determinations on the 100 Sampled Beneficiary-Months

  Sample
Beneficiary-   Deficiency    Deficiency     Deficiency    Deficiency     No. of
  Month            1             2              3             4        Deficiencies
     1
     2
     3
     4
     5              X                                                       1
     6
     7
     8
     9
    10
    11
    12
    13
    14                                                         X            1
    15
    16
    17
    18
    19
    20
    21
    22
    23
    24
    25
    26
    27                            X                                         1
    28
    29
    30
    31
                                                                             Page 2 of 3


  Sample
Beneficiary-   Deficiency   Deficiency   Deficiency   Deficiency     No. of
  Month            1            2            3            4        Deficiencies
    32
    33
    34
    35
    36
    37
    38
    39
    40                          X                                       1
    41
    42
    43
    44
    45
    46
    47
    48
    49
    50
    51
    52
    53
    54
    55
    56
    57             X                                      X             2
    58
    59
    60
    61
    62
    63
    64
    65
    66
    67
    68
    69
    70
    71
    72             X                                                    1
    73
                                                                                         Page 3 of 3


   Sample
 Beneficiary- Deficiency Deficiency                  Deficiency   Deficiency     No. of
   Month           1            2                        3            4        Deficiencies
      74                        X                        X                          2
      75                                                 X                          1
      76
      77
      78
      79
      80
      81
      82
      83
      84
      85           X                                                                1
      86           X                                                                1
      87
      88                                                 X                          1
      89
      90
      91
      92           X                                                                1
      93                        X                                                   1
      94                                                              X             1
      95
      96
      97
      98
      99
     100
  Category
                   6            4                        3            3            16*
    Totals
14 Beneficiary-Months With Deficiencies
*
    Two claims contained more than one deficiency.
                                                                                                                Page 10f2


         APPENDIX D: DEPARTMENT OF HEALTH COMMENTS



                                         NEW YORK
                                           sta te departm ent of

  N irav R. Shah. M .D" M .P.H .
  Commissioner 	
                                         HEALTH 	                             E ~ ecuti ve
                                                                                                       Sue Kelly
                                                                                             Deputy Comm issioner




                                                          June 29, 20 12




  James P. Edert 

  Regional Inspector General for Audit Services 

  Department or Health and Human Services 

. Region IJ
  Jacob lavitz Federal Building
  26 Federal PI,,",
  New York, New York 10278

                                                          Ref. No: A-02 - 10-O!o27 

 Dear Mr. Edert: 


         Enclosed arc the New York State Department of Health's comments on the Department
 of Health and Human Services, Office of Inspector General 's draft audit report A·02-10-01027
 on "New York Claimed Some Unallowable Costs for Services by New York Providers Under the
 State's Developmental Disabilities Waiver Program."

          Thank you for the opportunity to comment.


                                                          Sincerely,


                                             -M::~a~ ~    Deputy Conunissioner for Administration
 Enclosure

 cc: 	    Courtney Burke 

          Jason Helgerson 

          James C. Cox 

          Diane Christensen 

          Stephen Abbott 

          Stephen LaCasse 

          Vincent Sleasman 

          Irene Myron 

          John Brooks 

          Ronald Farrell 

          Barry Denner 


                                          HEAlTH. NY.GOV
                                           taCElboolc. com/NYSDOH
                                          tw,tter.com/Heattt.NYGov
                                                                                                 Page 20f2




                  New York State Department of Health 

      Comments on Department of Health and Human Services 

    Office of Inspector General Draft Audit Report A-02-1 0-01 027 

        titled "New York Claimed Some Unallowable Costs for 

               Services by New York City Providers Under 

       the State's Developmental Disabilities Waiver Program" 


The following arc the New York State Department of Health' s (Department) comments in
response to Department of Health and Human Services, Office ofInspcctor General (OIG) draft
audit report A-02-l 0-0 1027 titled "New York Claimed Some Unallowable Costs for Services by
New York City Providers Under the State's Developmental Disabilities Waiver Program."

Recommendation #1:

The Department should refund $7,772,807 to the Federal Government.

Response #1: .

The Department and the Oflice for People With Developmental Disabilities (OPWDD) concur
with the recommendation for the Department to refund $7,772,807 to the Federal Government.

Recommendation #2:

The Department should work with OPWDD to strengthen procedures to ensure that (I) providers
claim reimbursement only for OPWDO waiver program services actually provided and maintain
the required documentation to support services billed, and (2) OPWDD waiver program services
are provided pursuant to written plans of care.

Response #2:

The Department and OPWOD agree with the rccommendation and each will continue to
collaborate on implementing a revised qual ity improvement strategy that fully addresses OIO's
findings. Additionally, the Department's redesigned individual service plan (ISP) review
includes an annual revicw of a statistically valid random sample of ISPs for the purpose of
confirming that only the services listed in the ISP are reflected in claim detail reports.
